              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
 Beryllium Oxide Operations at the
 Y-12 National Security Complex




DOE/IG–0595                                 April 2003
BERYLLIUM OXIDE OPERATIONS AT THE Y-12 NATIONAL
SECURITY COMPLEX

TABLE OF
CONTENTS



               Beryllium Oxide Operations

               Details of Finding ........................................................................1

               Recommendations and Comments.............................................3


               Appendices

               1. Objective, Scope, and Methodology ......................................4

               2. Management Comments........................................................5
BERYLLIUM OXIDE OPERATIONS
Status of Beryllium   Much of the manufacturing equipment and facilities used for beryllium
Oxide Operations      oxide operations were spread across the Y-12 site and, in some cases,
                      co-located with other Y-12 operations. This situation led to increased
                      manufacturing time and costs, and exacerbated the health hazards
                      associated with the use of beryllium. For example, when material is
                      moved from one location to another, laboratory samples are taken to
                      ensure that a contaminated item is not carried outside of the contained
                      area. However, our review showed that if beryllium oxide operations
                      were consolidated, Y-12 could reduce the number of laboratory samples
                      by over 50 percent. Also, exposure to beryllium hazards for workers in
                      other Y-12 operations could be reduced if beryllium oxide activities
                      were isolated, rather than commingled with the other operations.

                      The age and condition of existing equipment and facilities contributed
                      to operational inefficiencies. The equipment, based on 1960's
                      technology, experienced excessive downtime. Specifically, the
                      equipment had numerous mechanical, hydraulic, and vacuum problems
                      and, in some cases, replacement parts were not available. Although
                      most of these problems were smaller in scope, they often took days or
                      weeks to be resolved. Uncontrolled temperatures resulting from the
                      outdated facilities and equipment also caused problems. Employees
                      worked partial shifts in the summer months and computer equipment
                      failed because facility temperatures often exceeded 80 degrees.

                      Finally, the health of the beryllium oxide workers remains a significant
                      concern under the existing operating conditions. The numbers of
                      beryllium-sensitized workers and chronic beryllium disease cases
                      continue to grow at a steady rate. The scientific community continues
                      to study the effects of beryllium exposure as well as how to properly
                      characterize beryllium concentrations. New scientific evidence
                      regarding particulate sampling suggests that worker exposure may be
                      even greater than anticipated.

Planning for          Problems in beryllium oxide operations persisted because the
Beryllium Oxide       Department did not have an approved, consistent plan for improving
Operations            operations, nor did it fully consider all viable alternatives.
                      Specifically, beginning in September 1998, local National Nuclear
                      Security Administration (NNSA) management began to work on
                      improving beryllium oxide operations through the Stockpile
                      Management Restructuring Initiative (Initiative). One of the goals of
                      the Initiative was to relocate beryllium oxide machining operations to a
                      more structurally sound location. The planned direction was cancelled
                      in Fiscal Year 2000, due in part to a new effort to build a Special
                      Materials Complex. The Special Materials Complex was expected to


Page 1                                                                     Details of Finding
         consolidate several special materials processing capabilities, including
         beryllium oxide operations, into one facility. However, in January
         2001, Y-12 management notified local NNSA management that it did
         not want to pursue the Special Materials Complex proposed by the
         prior contractor.

         Subsequently, local NNSA management directed the contractor to
         establish a new stand-alone, small-scale production facility.
         According to an NNSA program requirement document, the new
         manufacturing facility was supposed to be operational by June 2005.
         However, because of technical complexities associated with the
         project, the contractor estimated a 2012 operational date at an
         estimated cost of $260 million. In February 2002, the contractor began
         preparing documentation in support of the manufacturing facility, but
         NNSA Headquarters has not formally approved the proposed facility.
         In fact, during discussions with NNSA Headquarters management, we
         found that the Y-12 contractor was directed to revisit the proposed
         manufacturing facility because of unacceptable scope, cost, and
         capability.

         Additionally, the Department of Energy (Department) did not fully
         consider all viable alternatives to beryllium oxide operations. We
         noted that the Department had worked with materials other than
         beryllium oxide in the past that could perform the same function as
         beryllium oxide, without the harmful health effects. The Department
         has worked with one material in particular1 that seemed especially
         promising. A 1988 report concluded that this material appeared to be a
         viable replacement for beryllium oxide in future weapons systems. In
         support of the replacement material, technical experts reported that the
         substitute material lacked one of the undesirable performance
         characteristics and presented none of the toxicity problems associated
         with beryllium oxide. The substitute material's lack of toxicity is
         significant considering the enormous health care liability currently
         faced by the Department for beryllium exposure to workers.

         As a result of our audit, NNSA Headquarters plans to approach the
         weapons design laboratories about pursuing further research and
         development of substitute materials. However, we recognize that
         additional immediate measures, such as a new manufacturing facility,
         may need to be considered in conjunction with the use of a substitute
         material to solve the problems resulting from existing beryllium oxide
         operations.

         1
             Specific material name is classified.

Page 2                                                        Details of Finding
Health and Monetary   If issues with beryllium oxide operations are not addressed, further
Concerns              health problems could arise and additional expenditures could be
                      unnecessarily incurred. Specifically, until the Department decides on a
                      path forward and implements it, funds will continue to be expended to
                      "band-aid" beryllium oxide operations, but significant improvements to
                      worker health and safety may not be achieved. As of September 2002,
                      the Department had spent about four years and $10 million on activities
                      designed to mitigate the identified problems, but improvements are still
                      needed.


RECOMMENDATIONS       We recommend that the Deputy Administrator for Defense Programs:

                           1. Ascertain the viability of using a substitute for beryllium
                              oxide;

                           2. Determine the most efficient and effective path forward for
                              supporting the enduring stockpile;

                           3. Prepare a plan to implement the decision; and,

                           4. In the interim, take action to mitigate the existing beryllium
                              oxide operational efficiency and effectiveness issues, as noted
                              in this report.


MANAGEMENT REACTION   The Associate Administrator for Management and Administration,
                      NNSA, agreed with our recommendations and stated that NNSA will
                      begin the appropriate corrective action process immediately. We have
                      included management's comments in their entirety as Appendix 2.




Page 3                                                 Recommendations and Comments
Appendix 1
OBJECTIVE     The objective of this audit was to determine whether the Department
              was conducting its beryllium oxide operations in the most efficient and
              effective manner.


SCOPE         The audit was performed from July 2002 to February 2003 at the Y-12
              National Security Complex in Oak Ridge, Tennessee, and NNSA
              Headquarters in Washington, DC. The scope of the audit included a
              review of the Department's beryllium oxide operations.


METHODOLOGY   To accomplish the audit objective, we:

                   • Evaluated Federal and Department guidance concerning
                     beryllium oxide operations;

                   • Reviewed research and development documentation related to
                     substitute materials;

                   • Analyzed current and planned beryllium oxide operations;

                   • Conducted tours of beryllium oxide operations; and,

                   • Held discussions with cognizant Department and contractor
                     personnel.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits, and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the objective of the audit. Accordingly,
              the audit included a review of the Department's beryllium oxide
              activities. Because our audit was limited, it would not necessarily
              have disclosed all internal control deficiencies that may have existed at
              the time of our audit. As part of our review, we also evaluated the
              Department's implementation of the Government Performance and
              Results Act of 1993. We found that the Department had implemented
              specific and measurable performance measures related to beryllium
              operations. We did not conduct a reliability assessment of computer-
              processed data because only a very limited amount of computer-
              processed data was used during the audit.

              NNSA waived the exit conference.




Page 4                                         Objective, Scope, and Methodology
Appendix 2




Page 5       Management Comments
                                                                              IG Report No.: DOE/IG-0595

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
